No. __
IN THE SUPREME COURT OF THE UNITED STATES

PUBLISHERS BUSINESS SERVICES, INC., ED DANTUMA
ENTERPRISES, INC., EDWARD FRED DANTUMA, deceased, DRIES
DANTUMA, DIRK DANTUMA, JEFF DANTUMA, and BRENDA SCHANG,
Applicants.
v.
UNITED STATES FEDERAL TRADE COMMISSION,
Respondent,

APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR
A WRIT OF CERTIORARI TO THE UNITED STATES
NINTH CIRCUIT COURT OF APPEALS

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for Ninth Circuit Court of Appeals:
Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,
Publishers Business Services, Inc., Ed Dantuma Enterprises, Inc., Edward
Dantuma (deceased), Dries Dantuma, Dirk Dantuma, Jeff Dantuma, and Brenda
Schang (collectively “PBS”) respectfully request a 31-day extension of time, up to and
including Friday, October 18, 2019, to file a petition for a writ of certiorari. 1 The

Publishers Business Services, Inc. and Ed Dantuma, Inc. state that no parent
corporation or any publicly held corporation owns 10% or more of their stock.

1

1

Ninth Circuit entered judgment on August 31, 2018. App. A hereto. The Ninth
Circuit denied PBS’s timely petition for rehearing and rehearing en banc on June 19,
2019. See App. B hereto. Without an extension, a petition for a writ of certiorari would
be due on September 17, 2019. This Court has jurisdiction under 28 U.S.C. § 1254.
1.

This case presents a direct circuit split over a recurring and important

question: can the Federal Trade Commission (FTC) recover monetary relief under §
13(b) of the FTC Act, whose sole remedy is a forward-looking injunction? That
question has long loomed over the FTC’s frequent practice of using § 13(b) to obtain
monetary awards, invoking a federal court’s inherent equity powers. The FTC
obtains judgments worth billions of dollars annually under § 13(b) without any
Congressional authorization, while ignoring the express monetary remedies
Congress actually gave the FTC under § 19 of its Act. The Seventh Circuit rightly
called an end to this practice two (2) weeks ago in its decision, F.T.C. v. Credit
Bureau Center, LLC, 18-2847, 2019 WL 3940917 (7th Cir. Aug. 21, 2019). Credit
Bureau holds that § 13(b)’s plain language, the specific and carefully calibrated
monetary remedies of § 19, and this Court’s instruction not to assume a statute with
“elaborate enforcement provisions” implicitly authorizes other remedies, precluded
implied monetary remedies under § 13(b). Id. at *1.
2.

The Seventh Circuit’s decision in Credit Bureau broke from virtually

all other circuits, which have for decades allowed district courts to award implied
monetary relief, usually disgorgement or restitution, with few constraints. See id. at
*18 (“We recognize that this conclusion departs from the consensus view of

2

our sister circuits.”). Before Credit Bureau, circuit decisions often uncritically
adopted other circuit rulings with little or no attention to § 13(b)’s plain text or to
the FTC Act’s carefully constructed statutory scheme. Courts that did endeavor to
justify monetary relief under § 13(b) invariably ended up pushing the boundaries of
purported “equity powers” beyond anything resembling equity. The Ninth Circuit
has been at the leading edge of this aggressive expansion of judge-made remedies
under § 13(b). In direct conflict with the Seventh Circuit, the Ninth Circuit holds
that implied disgorgement not only exists under § 13(b), but it includes the power to
issue joint and several awards, almost always measured by customer loss, and
without regard for associated expenses or what unjust enrichment a defendant
actually received. See F.T.C. v. Commerce Planet, Inc., 815 F.3d 593, 600-04 (9th
Cir. 2016).
3.

The case against PBS represents the extreme end of this “equity

power” creep. PBS was a family-owned business that, for over five decades, sold
magazines, often through telemarketing. The FTC sued PBS, its founder Ed
Dantuma (now deceased), his wife, and their four children, alleging some aspects of
PBS’s telemarking business violated § 5(a) of the FTC Act and the Telemarketing
Sales Rule.
4.

The district court decided on summary judgment that PBS violated §

5(a) and then convened an evidentiary hearing on monetary relief. The FTC
established nothing at the evidentiary hearing linking customer loss to the alleged
violations of the FTC Act; however, it demanded $34 million in what it called “net

3

revenue”—gross revenue less refunds—arguing it was available within the court’s
inherent equity powers under § 13(b). The district court, after hearing live
testimony and having the opportunity to assess credibility, found that the vast
majority of customers suffered no injury from the violations and awarded the FTC
$191,219 (which judgment was promptly paid). The FTC appealed, and the Ninth
Circuit vacated the award, deciding that the district court had abused its discretion.
5.

On remand, the FTC asked for almost $24 million, removing only the

barest minimum of customers who were obviously not misled. A new district court
judge adopted wholesale the FTC’s proposal and entered judgment against PBS in
the amount of $23,773,147.78—a 12,000% increase from the original judgment.
6.

PBS appealed, asking the Ninth Circuit to revisit and reverse its case

law authorizing disgorgement under § 13(b). This Court’s decision in Kokesh v.
S.E.C., 137 S. Ct. 1635 (2017), issued during the appeal, effectively undermined the
Ninth Circuit’s prior logic. Kokesh held that disgorgement in SEC cases was in
substance a penalty and therefore had to be brought within the 5-year limitation
period of 28 U.S.C. § 2462. Kokesh, 137 S. Ct. at 1639.
7.

The implications of Kokesh were undeniable. Like FTC restitution or

disgorgement under § 13(b), SEC disgorgement is not awarded pursuant to a
specific statutory provision but instead under a district court’s supposed inherent
equity powers, ancillary to a SEC injunction statute. But inherent equity powers
have never included the power to award penalties, legal relief only Congress can
prescribe.

4

8.

PBS urged the Ninth Circuit to follow Kokesh’s holding to its logical

conclusion—federal district courts lack inherent authority to award disgorgement
under § 13(b). PBS argued that if the express text and structure of § 13(b) were not
enough to cause the Ninth Circuit to reverse its precedent, Kokesh and Separation
of Powers concerns were.
9.

A parallel case raised the same issue, though with vastly greater

amounts at stake. The district court in FTC v. AMG Servs., Inc., No.
212CV00536GMNVCF, 2016 WL 5791416 (D. Nev. Sept. 30, 2016) claimed the
inherent equity power to award disgorgement under § 13(b) in the amount of over
$1.3 billion. Id. at *14-15.
10.

The Ninth Circuit heard oral argument in this case and AMG back-to-

back on the same day. The Ninth Circuit affirmed both judgments, finding Kokesh
did not overrule Ninth Circuit precedent permitting § 13(b) monetary relief.
However, two judges in the AMG decision filed a concurring opinion, reasoning at
length that the Ninth Circuit precedent was wrong and should be overturned en
banc. See FTC v. AMG Capital Management, LLC, 910 F.3d 417, 429 (9th Cir. 2018)
(O’Scannlain, J., concurring). The two judges concluded that the “text and structure
of the statute unambiguously foreclose such monetary relief”—the same reasoning
the Seventh Circuit eventually adopted in Credit Bureau. The PBS and AMG
defendants petitioned for en banc review, but the Ninth Circuit denied both
petitions on consecutive days.

5

11.

The circuit split leaves a jarring discrepancy. Under the current law of

the Seventh Circuit, the FTC could have, in this case and in AMG, recovered no
more than injunctive relief under § 13(b). For monetary relief, the FTC would have
had to satisfy the challenging reliance element and other elements Congress wrote
into § 19. But in the Ninth Circuit, the FTC was awarded staggering sums having
proved little more than a calculation of gross revenue. This Court’s intervention is
badly needed to resolve the circuit split.
12.

A modest 31-day extension of time is needed to allow counsel adequate

time to address these important issues and the newly created circuit split. In
addition,

the

undersigned

counsel

has

numerous

preexisting

professional

responsibilities during September, including a reply brief on a motion to dismiss
due September 9 in EGI-VSR v. Coderch, No. 15-20098-CIV-SCOLA (S.D. Fla); a
reply in support of a petition for en banc review in SEC, et al v. Stanford
International Bank, et al., No. 17-11073 (5th Cir.); and a damages trial commencing
September 23 in Samra v. Bedoyan et al., No. 14-22854 CA 44 (Fla. Cir. Ct.).
WHEREFORE, for the foregoing reasons, Applicants respectfully request
that the time for filing a petition for a writ of certiorari in this case be extended
through and including October 18, 2019.

6

Respectfully submitted:

PETER W. HOMER
Counsel of record
CHRISTOPHER KING
HOMER BONNER JACOBS
1200 Four Seasons Tower
1441 Brickell Avenue
Miami, Florida 33131
(305) 350-5192
phomer@homerbonner.com
August 30, 2019

7

APPENDIX A

(1 of 12)
Case: 17-15600, 08/31/2018, ID: 10997289, DktEntry: 50-1, Page 1 of 7

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
AUG 31 2018
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
FEDERAL TRADE COMMISSION,

No.

U.S. COURT OF APPEALS

17-15600

PlaintiffAppellee,

D.C. No. 2:08-CV-00620-APGGWF

v.
DIRK DANTUMA; DRIES DANTUMA;
EDWARD FRED DANTUMA; JEFFREY
DANTUMA; ED DANTUMA
ENTERPRISES, INC., DBA Publishers
Business Services, DBA Publishers Direct
Services; PUBLISHERS BUSINESS
SERVICES, INC.; BRENDA DANTUMA
SCHANG,

MEMORANDUM*

Defendants-Appellants.
On Appeal from the United States District Court
for the District of Nevada,
Judge Andrew P. Gordon, presiding
Argued and Submitted August 15, 2018
San Francisco, California
Before: O’SCANNLAIN and BEA, Circuit Judges, and STEARNS,** District
Judge.
*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Richard G. Stearns, United States District Judge for the
District of Massachusetts, sitting by designation.
1

(2 of 12)
Case: 17-15600, 08/31/2018, ID: 10997289, DktEntry: 50-1, Page 2 of 7

This case concerns a telemarketing scheme to sell magazine subscriptions.
From 2004 to 2008, Publisher Business Services, Inc. (“PBS”) used a collection of
deceptive telemarketing scripts to sell magazine subscriptions to consumers on the
pretense that PBS was conducting a “survey.”

In 2008, the Federal Trade

Commission (“FTC”) filed suit against PBS, alleging that PBS’s actions violated
section 5 of the FTC Act, 15 U.S.C. § 45(a), and requesting equitable relief from the
district court under section 13(b) of the FTC Act, 15 U.S.C. § 53(b).
On cross-motions for summary judgment, the district court found that PBS
had violated the FTC Act, but held that a further hearing on monetary relief was
required. After an evidentiary hearing, the district court entered judgment against
PBS in the amount of $191,219. The FTC appealed the district court’s calculation
of monetary relief, but PBS did not file a cross-appeal regarding liability. We
reversed the district court and remanded for further proceedings on monetary relief.
See FTC v. Publishers Bus. Servs., Inc., 540 F. App’x 555, 556–58 (9th Cir. 2013)
(“PBS I”).
On remand, a new district court judge awarded the FTC nearly $24 million in
equitable monetary relief. PBS appeals, raising a number of arguments.
We review a district court’s order granting equitable relief under the FTC Act
“for abuse of discretion or the erroneous application of legal principles.” FTC v.
Network Servs. Depot, Inc., 617 F.3d 1127, 1141 (9th Cir. 2010). A district court
2

(3 of 12)
Case: 17-15600, 08/31/2018, ID: 10997289, DktEntry: 50-1, Page 3 of 7

abuses its discretion when it fails to identify and apply “the correct legal rule to the
relief requested,” or if its application of the legal standard was “illogical,
implausible, or without support in inferences that may be drawn from the facts in the
record.” United States v. Hinkson, 585 F.3d 1247, 1263 (9th Cir. 2009) (en banc).
1. PBS first argues that the district court lacked the authority to enter equitable
monetary relief under section 13(b) of the FTC Act. This argument is foreclosed by
our precedent. We have repeatedly held that section 13(b) of the FTC Act grants
district courts the power to impose equitable remedies, including restitution and
disgorgement of unjust gains. See FTC v. Commerce Planet, Inc., 815 F.3d 593,
598–99 (9th Cir. 2016); FTC v. Neovi, Inc., 604 F.3d 1150, 1159–60 (9th Cir. 2010);
FTC v. Pantron I Corp., 33 F.3d 1088, 1102 (9th Cir. 1994).
Contrary to PBS’s argument, Kokesh v. S.E.C., 137 S. Ct. 1635 (2017), has
not abrogated this long-standing precedent. The Kokesh Court itself expressly
restricted its ruling to whether the SEC’s power to seek equitable disgorgement was
subject to a five-year statute of limitations and specifically stated that “[n]othing in
this opinion should be interpreted as an opinion on whether courts possess authority
to order disgorgement in SEC enforcement proceedings.” 137 S. Ct. at 1642 n.3.
Kokesh is far from definitive enough regarding our interpretations of section 13(b)
to cause us to depart from our long-standing precedent. See Miller v. Gammie, 335
F.3d 889, 899 (9th Cir. 2003) (en banc).
3

(4 of 12)
Case: 17-15600, 08/31/2018, ID: 10997289, DktEntry: 50-1, Page 4 of 7

2. The district court did not abuse its discretion when it applied a presumption
that consumers who bought PBS’s products relied on PBS’s deceptive tactics and
representations. We have previously held that “proof of individual reliance by each
purchasing customer is not needed” to establish liability under section 13(b). FTC
v. Figgie Int’l, Inc., 994 F.2d 595, 605 (9th Cir. 1993). Rather, “[a] presumption of
actual reliance arises once the Commission has proved that the defendant made
material misrepresentations, that they were widely disseminated, and that consumers
purchased the defendant’s product.” Id. at 605–06. Here, the district court did not
abuse its discretion in concluding that all three factors were present.1
The district court also did not err in rejecting PBS’s argument that evidence
of “satisfied” customers who renewed their subscriptions did not rebut the
presumption of reliance. We have previously held that there is “no authority” for
the proposition that equitable monetary awards in the consumer protection context

1

Contrary to PBS’s argument, the district court’s application of the
presumption of reliance did not absolve the FTC of its responsibility to prove that
the harm to the consumer was proximately caused by PBS’s wrongful conduct.
Nothing in the district court’s ruling or reasoning runs afoul of the Supreme Court’s
decision in Bank of America Corporation v. City of Miami, 137 S. Ct. 1296 (2017).
The relationship between PBS’s wrongful conduct and the harm to the consumer
was not attenuated or merely “foreseeable,” it was direct: consumers were induced
to enter into the transaction as a result of PBS’s deceptive tactics and representations.
Similarly, Dura Pharmaceuticals, Inc. v. Broudo, 544 U.S. 336, 339–40 (2005), is
inapposite because, in this case, the FTC sought relief only for those consumers who
were damaged when they actually paid PBS after being induced to enter into the
transaction because of PBS’s deceptive tactics.
4

(5 of 12)
Case: 17-15600, 08/31/2018, ID: 10997289, DktEntry: 50-1, Page 5 of 7

should be reduced by amounts paid by customers who were “satisfied” or obtained
a benefit from the defendant’s services. See FTC v. Gill, 265 F.3d 944, 958 (9th Cir.
2001); Consumer Fin. Prot. Bureau v. Gordon, 819 F.3d 1179, 1196 (9th Cir. 2016).
Additionally, as the district court found, the fact that a consumer later decided to
renew his or her subscription “does not necessarily mean [his or her] original
decision to purchase was free from the taint of [PBS’s] deceptive sales practices.”
This conclusion makes sense. The fact that a customer was satisfied months or years
after the fact does not mean that the customer did not rely on PBS’s deceptive sales
techniques at the time of the original purchase. Without other evidence, PBS’s
arguments to the contrary are speculative. The district court’s findings on this issue
were not “illogical, implausible, or without support in inferences that may be drawn
from the facts in the record.” Hinkson, 585 F.3d at 1263.
3. PBS also argues that the district court erred on remand by considering
evidence that was submitted at the summary judgment stage of the proceedings,
including declarations from PBS customers and former PBS employees. PBS did
not raise this argument in the district court and, as a result, has waived the argument
on appeal. Abogados v. AT&T, Inc., 223 F.3d 932, 937 (9th Cir. 2000) (“Since the
district court did not have an opportunity to consider this argument, it is waived.”).
Further, PBS’s argument is barred by the invited error doctrine. Not only did
PBS fail to argue that the district court should not consider declarations submitted at
5

(6 of 12)
Case: 17-15600, 08/31/2018, ID: 10997289, DktEntry: 50-1, Page 6 of 7

summary judgment, its own briefing contains a number of references to the very
material it claims the district court erred by considering.

For instance, PBS

repeatedly directed the district court to the customer declarations it now seeks to
exclude, arguing that those declarations showed that very few customers were
actually deceived or damaged. We have long held that a party “may not complain
on review of errors below for which he is responsible.” See Deland v. Old Republic
Life Ins. Co., 758 F.2d 1331, 1336 (9th Cir. 1985) (quoting Hudson v. Wylie, 242
F.2d 435, 448 (9th Cir. 1957)). Here, any error committed by the district court in
considering evidence from the summary judgment record was invited by PBS’s
briefing, which specifically asked the district court to consider that evidence.
4. Next, PBS argues that the FTC’s claims are subject to the three-year statute
of limitations contained in section 19 of the FTC Act. This argument is meritless.
The FTC brought its claims under section 13(b) of the FTC Act, which contains no
statute of limitations. Section 19 of the FTC Act does not provide that its statute of
limitations applies to actions under section 13(b). “In the absence of a federal statute
expressly imposing or adopting one, the United States is not bound by any
limitations period.” United States v. Dos Cabezas Corp., 995 F.2d 1486, 1489 (9th
Cir. 1993).
5. Finally, PBS attempts to argue that the district court’s original summary
judgment ruling regarding liability was erroneous. PBS has waived any challenge
6

(7 of 12)
Case: 17-15600, 08/31/2018, ID: 10997289, DktEntry: 50-1, Page 7 of 7

to the district court’s rulings on liability. During PBS I, PBS did not cross-appeal
the district court’s ruling that PBS was liable under the FTC Act. We have
repeatedly held that we “need not and do[] not consider a new contention that could
have been but was not raised on the prior appeal.” See Munoz v. Imperial Cty., 667
F.2d 811, 817 (9th Cir. 1982). We have also previously held that even parties who
were satisfied with the district court’s judgment must file a cross-appeal to preserve
issues for review in subsequent appeals following a remand. See Alioto v. Cowles
Commc’ns, Inc., 623 F.2d 616, 618 (9th Cir. 1980).2 As a result, PBS waived any
arguments regarding the district court’s liability ruling when it failed to raise those
arguments by way of a cross-appeal in PBS I.
In light of the above, the district court’s judgment is AFFIRMED.

2

Contrary to PBS’s argument that it should be excused for its failure to file a
protective cross-appeal because they are “disfavored,” we have previously endorsed
the use of protective cross-appeals. See Alioto, 623 F.3d at 617; see also Warfield
v. Alaniz, 569 F.3d 1015, 1019 (9th Cir. 2009) (“A protective cross-appeal is
permissible once an initial appeal is filed, raising the possibility of reversal.”).
7

APPENDIX B

Case: 17-15600, 06/19/2019, ID: 11336811, DktEntry: 63, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 19 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FEDERAL TRADE COMMISSION,
Plaintiff-Appellee,
v.

No.

17-15600

D.C. No.
2:08-cv-00620-APG-GWF
District of Nevada,
Las Vegas

DIRK DANTUMA; et al.,
ORDER
Defendants-Appellants.
Before: O'SCANNLAIN and BEA, Circuit Judges, and STEARNS,* District
Judge.
The panel has voted to deny Appellants’ petition for panel rehearing. Judge
Bea votes to deny Appellants’ petition for rehearing en banc, and Judges
O’Scannlain and Stearns recommend that en banc rehearing be denied. The full
court has been advised of the petition for rehearing en banc and no judge of the
court has requested a vote on en banc rehearing. See Fed. R. App. P. 35(f). The
petition for panel rehearing and the petition for rehearing en banc are denied.

*

The Honorable Richard G. Stearns, United States District Judge for
the District of Massachusetts, sitting by designation.

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing was served
by Federal Express on August 30, 2019 on all counsel or parties of record on the
Service List below.
Alden F. Abbott
Joel Marcus
Leslie Rice Melman
FEDERAL TRADE COMMISSION
600 Pennsylvania Avenue, N.W.
Washington, D.C. 20580
Solicitor General of the United
States Room 5616
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

______________________
Peter W. Homer

